                                         UNITED STATES OF AMERICA
                        FEDERAL LABOR RELATIONS AUTHORITY OFFICE OF THE
                                      INSPECTOR GENERAL
                                            WASHINGTON, D.C. 20424-0001




SUBJECT: FLRA Inspector General Investigation 2005-I-01

ALLEGATION: FLRA employees are abusing Alternative Work Schedule (AWS),
compressed work schedules without any accountability or control by managers and
supervisors.

METHODOLOGY: The FLRA Inspector General conducted this investigation in
accordance with Federal investigation standards. Interviews were held with FLRA
managers and supervisors who had employees registered under the AWS as well as
randomly selected time keepers and AWS employees. The FLRA Regional Directors
from FLRA Regional Offices that had AWS employees were also interviewed.



REFERENCES:
                    5.U.S.C. Chapter 61, Subchapter II 5 C.F.R. Part 610, Subpart D 5
                    C.F.R, Part 550 FLRA Instruction 3530.1, Flexiplace Pilot Program
                    FLRA Instruction 3640, Alternative Work Schedules FLRA -UAE
                    Contract

BACKGROUND: On November 27, 2004, the FLRA Inspector General and Acting
Director of Human Resources received an anonymous complaint stating that FLRA
employees were abusing the AWS compressed work schedules without any
accountability of control by managers and supervisors. The complainant alleged that
there was substantial fraud, and waste of Government funds and resources and that
employees scheduled to work 9 hour days on a fixed time schedule were working 7 ½ to
8 ½ hours daily and that flexible schedule employees did not sign in or out for days at a
time and are claiming credit hours for staying late on days they have arrived late.

On July 11, l994, the President of the United States issued a memorandum titled,
“Expanding Family-Friendly Work Arrangements in the Executive Branch,” and
encouraged the implementation of alternative work schedules to enable Federal
employees to balance their work and family responsibilities in a better way and allow the
Federal Government the opportunity of hiring and/or retaining the highest level of a
workforce. Congress also supported this objective.

On August 9, 2000, the FLRA issued a Flexiplace Pilot Program Instruction (FLRA
Instruction 3530.1.) The instruction implementing the Alternative Work Schedule to
accommodate employees needs for work schedule flexibility without impacting FLRA’s
mission accomplishments was issued on October 1, l995. The AWS refers to both fixed
and flexible work schedules and requires full-time employees to maintain an 80 hour
biweekly pay (or leave) status. FLRA AWS employees must be in work status during
FLRA’s core time (9:30 AM to 3:30 P.M.) The FLRA established two types of fixed work
schedules. A compressed work schedule involves a 5-4/9 biweekly work schedule and
allows the employee one day off in the biweekly pay period. The second fixed work
schedule is called a Fixed Tour Work Schedule which is based on the employees
selected pattern of arrival time prior to the morning core time. These employees must
work 8 hours per day from the time they begin their work status. Similar to the Fixed
Tour Work schedule except that employees may flex their daily schedules without prior
supervisory approval. The Gliding Work Schedule employees must work (or be on
leave) 8 hours a day and 40 hours for each week. Once the supervisor approves an
employee’s request for working under a gliding work schedule, the employee is not
required to obtain approval for day to day changes of arrival time within the morning
flexible time band. The second flexible schedule is the Variable Day Work Schedule.
This schedule includes the requirements of the Gliding Work Schedule with an
additional feature allowing full time employees to vary the number of hours worked each
day as long as each day of the biweekly pay period are scheduled to be worked. The
core time must be included and no credit or leave hours can be taken during the core
hours. Also, no more than 10 scheduled hours per day can be worked. Flexible work
scheduled employees have the discretion to change arrival time, number of hours
worked per day as long as they work the required 40 hours per week. They do not have
to have supervisory approval these changes but are required to be at work during the
core hours. When a supervisor determines that it is necessary to change or terminate
an employee’s AWS schedule, the supervisor must provide the employee with a
reasonable advanced notice and the specific reasons for such a decision. Disapproval
or suspension of an eligible employee’s use of Fixed or Flexible work hours must be
supported by:

a. Disruption in maintaining assigned office functions to provide customer service, and
b. Abuse of or falsification of sign in and sign out requirements.

Supervisors are required to maintain files on written approvals or changes in
employees’ AWS as well as written records of credit hours and use. Employees who
are on flexible work schedules or fixed work schedules must be accountable for their
proper arrival and departure time work schedule. Fixed work employees must schedule
their arrival and departure times in 15 minute intervals within an hour. Employees who
are registered on Gliding or Variable Day Work Schedules may arrive (without approval)
at any time within the morning flexible time band and depart at any time within the
afternoon flexible time band. Employees are not permitted to schedule more than 10
hours per work day because working longer than 10 hours usually causes fatigue and
the reduction of productivity.

Flexible employees may earn credit hours in increments of 15 minutes and not more
than two credit hours a day. The maximum carryover of credit hours per pay period is
24 credit hours. Credit hours may be used the same way annual and sick leave are
used and supervisory approval is required before credit hours are used. It is up to each
individual supervisor as to whether approval is required prior to the employee’s earning
of credit hours is conducted. As of March 31, 2005, the FLRA has 52 employees
registered for AWS Fixed Work Schedule 56 employees used the Flexible Gliding or
Variable schedules.

Finding of Facts


   1. The FLRA currently has 52 employees who are registered for AWS Fixed Work
      Schedules (5/4/9) and employees registered for Flexible Gliding Work
      Schedules. FLRA Headquarters components, with the exception of Member
      Armendariz’s Office, and Regional Offices, with the exception of the Boston
      Regional Office, have AWS 5/4/9 employees. The Washington Regional Office
      and the Chicago Regional Office have the most amount of employees (9)
      registered with AWS Fixed Work Schedule (5/4/9.) Most FLRA Headquarters
      subcomponents have employees registered for Flexible Gliding/Variable Work
      Schedules.

   2. Interviews with FLRA supervisors did not reveal any inappropriate actions by
      their AWS fixed scheduled registered employees. The majority of supervisors
      stated that most of their AWS fixed schedule employees actually worked beyond
      the required 5/4 9 hour day.

   3. Virtually all supervisors have read the FLRA’s AWS Regulation but only one
      Regional Office Director stated that all of the previous and new employees were
      provided the AWS instruction by him when they came on board. All other
      supervisors stated that they assumed that all AWS employees read the FLRA
      AWS instruction prior to applying for it, or were previously provided training for
      AWS. This investigation affirmed that the Office of the General Counsel provided
      its employees AWS information/internal training up to FY 2001. All new
      (appointed FY 200l to current time) supervisors “assumed” that their employees
      were previously provided information on AWS before they registered for it.

   4. With the exception of one, all supervisors stated that they did not require their
      AWS fixed scheduled employees to sign in and out (not required by the FLRA
      instruction) but that they maintained sign in/out sheets for their Flexible Gliding
      and Variable work employees (required by FLRA instruction). All involved FLRA
      supervisors required their approval for AWS fixed scheduled employees changes
      to their biweekly schedules. Most involved FLRA supervisors (or their Deputies if
      they were not present) placed the responsibility for comparing approved leave
      with the biweekly statements of work to their Office Managers prior to the
      supervisor’s approval and the submission online to the Department of Interior
      National Services Division.
5. With the exception of two Directors, one Regional Office Acting Director and one
   Headquarters Acting Director, all other AWS fixed and flexible) employee
   supervisors periodically monitored their employees time sheets and were aware
   that their AWS



6. Employees complied with AWS requirements. The two that stated that they “trust
   their employees and assumed compliance also stated that if they became aware
   of any improper actions, they would immediately pursue them.

7. The majority of FLRA AWS (both fixed and flexible) employee supervisors felt
   that AWS was beneficial to FLRA employees. One Regional Office Director
   stated that he used FLRA’s work schedule options as part of his recruiting/ hiring
   tools.

8. All senior and line supervisors interviewed stated they did not have any problems
   with employees following their AWS requirements. They all stated that if they
   became aware of any problems, they would address them immediately. Two
   supervisors stated that they did have some issues several years ago, counseled
   the subject employee and corrected the problem (one was corrected by removing
   the employee from AWS.) No current problems were identified.

9. The majority of FLRA supervisors who had AWS Fixed Schedule employees also
   had Flexible Gliding or Variable employees. All of the Flexible Gliding and
   Variable employees were required to sign in and out each day. Fixed schedule
   employees do not have this requirement. The major issue related to Flexible
   Gliding or Variable employees is that a few of these employees did not sign in
   and out on each day but did fill their weekly requirements when they did decided
   to sign in and out. Their supervisors were not aware of this.

10. Three supervisors clearly stated they did not like having AWS and would support
    its elimination. Two supervisors felt it affected the FLRA mission in a negative
    manner. Most of the supervisors relied on their timekeepers to ensure that
    biweekly time statements equated with sign in/out sheets and leave slip
    approvals. Supervisors and/or their deputies signed all leave slips and trusted
    their time keepers.

11. This investigation revealed that an AWS Fixed Schedule employee (who is no
    longer employed by the FLRA) did abuse the AWS work schedule by leaving
    approximately a half hour earlier than the 9 hour day. The timekeeper notified the
    employee’s supervisor who did not take any action, and the timekeeper
    personally informed the employee. According to the timekeeper, there was no
    additional abuse of time by this individual from that time forward to the time of
    departure.

12. This investigation did not reveal any other AWS Fixed Schedule problems in the
    FLRA Headquarters or Regional Offices. In fact, this investigation revealed that
   most AWS fixed schedule employees actually worked more than their biweekly
   requirement of 80 hours. Although the majority of FLRA AWS Flexible
   employees handled their time and attendance commitments properly, a few
   Gliding Schedule employees did not sign in and out on the same day and a few
   indicated credit hours which were not supported by their hour entries and/or were
   not approved by their supervisor.

13. This investigation revealed that all FLRA managers had a subordinate time
    keeper employee review leave sheets and biweekly time statement statements
                              1
   before they signed them. All FLRA managers trusted their employees who were
   their component timekeepers and most signed the time keeper’s reviewed
   biweekly times statements without comparing them with leave slips or the sign
   in/out sheets. All of these managers stated that if they became aware of a
   problem related to timekeeping, they would immediately address it. Three FLRA
   managers stated they did check the biweekly statements with leave slips prior to
   signing the biweekly time statements.

14. This investigation did not reveal any significant abuses of flexible work schedule
    by FLRA employees. The majority of Regional Office employees are signed up
    for flexible works schedules. Some employees did state that sometimes they did
    not sign in or out every day (especially if they were going to training or meetings
    held at other locations) but there was no indication of improper use of work time.
    FLRA components and subcomponents had various ways of collecting sign in/out
    sheets. Only one employee stated that she kept the sign in/out sheets and was
    not required to provide them to the timekeeper or supervisor. Most timekeepers
    collected the sign in/out sheets at the end of each pay period and used them to
    check each flexible employee’s pay period statement of work. Some supervisors
    also reviewed them before approving the statements of work.

15. The Inspector General review of the FLRA Alternative Work Schedules and
    Flexiplace Pilot Program instructions revealed that they were prepared, properly
    and contained an extensive amount of information. All managers interviewed
    had read the subject instructions. Most FLRA AWS employees also read the
    related instructions. Those that didn’t were provided detailed information by their
    timekeepers and/or supervisors as a result of this investigation.

16. This investigation revealed that the Human Resource Division did maintain a list
    of fixed scheduled employees but did not have a list of FLRA’s flexible work
    scheduled employees. Since the flexible work scheduled employees also
    needed to be interviewed for this investigation, the FLRA Inspector General
    created an agency wide list of flexible employees and provided this list to Human
    Resources.
Conclusion:

Virtually all AWS (Fixed and Flexible) employees were grateful and enjoyed the
opportunity to have the AWS. All AWS employees interviewed stated they had read the
FLRA AWS instruction or obtained relative information from their office manager and/or
supervisor before signing up for AWS. As a result of this investigation, a majority of
supervisors directed their employees to re-read the FLRA AWS and Flexible
instructions.

Most supervisors supported the AWS concept. Only a few stated that they wished it
didn’t exist because they felt it impacted their ability to address their workload in a timely
manner. There were no statistics available to support those concerns.

This investigation did not reveal any serious problems with AWS Work Schedules. A
few vulnerabilities were discovered with the Gliding Flexible Work Schedule employees
from the time keepers. Some Gliding Work Schedule employees did not sign in and out
each day and filled in the sign sheets later than the appropriate day. A few employees
also indicated credit hours which did not match the daily numbers entered on the sign
sheet.

However, associated time keepers brought these mistakes to the subject employees or
their supervisors and they were corrected.

Recommendation:

In order to eliminate the issues revealed by this investigation:

1. Time Keepers and Managers should review biweekly statements of work and check
   sign in/out sheets of Gliding Flexible employees.

2. FLRA Management should consider preparing a standard biweekly sign in/out sheet
   for all employees (not just for Flexible employees) to ensure proper preparation of
   time statement sheets by all employees.
